         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Evaluation Report




       Leaking Underground Storage
       Tank Recovery Act Grants
       Contained Requirements but
       Priority Lists Need More Oversight
       Report No. 11-R-0018

       November 22, 2010
Report Contributors:                          John Coll
                                              Dan Engelberg
                                              Fredrick Light
                                              Tim Roach
                                              Gerry Snyder
                                              Michael Wagg




Abbreviations

ARRA         American Recovery and Reinvestment Act of 2009
CFR          Code of Federal Regulations
EPA          U.S. Environmental Protection Agency
GAO          U.S. Government Accountability Office
LUST         Leaking Underground Storage Tank
OIG          Office of Inspector General
OUST         Office of Underground Storage Tanks
SWDA         Solid Waste Disposal Act, as amended
UST          Underground Storage Tank
                       U.S. Environmental Protection Agency 	                                         11-R-0018
                                                                                               November 22, 2010
                       Office of Inspector General


                       At a Glance
                                                                        Catalyst for Improving the Environment


Why We Did This Review           Leaking Underground Storage Tank
We reviewed the U.S.
                                 Recovery Act Grants Contained Requirements
Environmental Protection         but Priority Lists Need More Oversight
Agency’s (EPA’s)
management of American
                                  What We Found
Recovery and Reinvestment
Act of 2009 (ARRA) funding
                                 While the Recovery Act grants we reviewed contained most of the requirements
for the Leaking Underground
                                 specified in Agency regulations and guidance, there were three management
Storage Tank (LUST)
                                 control deficiencies with these grants: (1) EPA had not clarified to states
program. We sought to
                                 whether municipally owned LUST sites would be eligible for ARRA LUST
determine whether this
                                 funds, (2) EPA had no plan to deobligate unspent ARRA funds from grant
oversight ensures that ARRA-
                                 recipients, and (3) EPA in many instances does not use state data to ensure that
funded LUST cooperative
                                 grants comply with site priority requirements of the Solid Waste Disposal Act,
agreements comply with
                                 as amended (SWDA). EPA corrected the first two deficiencies by spring 2010
applicable laws, regulations,
                                 through additional guidance to the regions. However, EPA has not yet corrected
and guidance.
                                 the third deficiency.
Background
                                 In accordance with ARRA’s economic and environmental purposes, the Office
                                 of Underground Storage Tanks’ June 2009 Recovery Act guidance instructed
EPA allocated $190.7 million
                                 states to use ARRA funds at sites that best met program priorities of being both
of ARRA funds to support
                                 shovel ready and most threatening to human health and the environment. While
state and territorial LUST
                                 every ARRA LUST cooperative agreement we reviewed contained language to
cleanup programs. The
                                 fund shovel-ready sites, the agreements varied considerably in how they
overall purposes of LUST
                                 addressed the SWDA site prioritization requirement. This management
Recovery Act money are to
                                 deficiency means that EPA regions are unable to ensure that states have directed
clean up contaminated LUST
                                 ARRA funds to shovel-ready sites that provide the greatest environmental
sites effectively while
                                 benefit.
maximizing job creation and
retention, and providing
                                  What We Recommend
economic and environmental
benefits to citizens of the
                                 We recommend that the Assistant Administrator for Solid Waste and
United States.
                                 Emergency Response ensure that the SWDA site priority requirement is
For further information,         consistently incorporated into the terms and conditions of future LUST Trust
contact our Office of            Fund grant agreements. The Agency agreed with our recommendation.
Congressional, Public Affairs
and Management at
(202) 566-2391.

To view the full report,
click on the following link:
www.epa.gov/oig/reports/2011/
20101122-11-R-0018.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                               THE INSPECTOR GENERAL



                                       November 22, 2010

MEMORANDUM

SUBJECT:	             Leaking Underground Storage Tank Recovery Act Grants Contained
                      Requirements but Priority Lists Need More Oversight
                      Report No. 11-R-0018


FROM:                 Arthur A. Elkins, Jr.
                      Inspector General

TO:                   Mathy Stanislaus
                      Assistant Administrator for Solid Waste and Emergency Response


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated cost of this report, calculated by multiplying the project’s staff days and expenses
by the applicable daily full cost billing rates in effect at the time, is $766,895.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed-upon
actions, including milestone dates. Your response will be posted on the OIG’s public website,
along with our memorandum commenting on your response. Your response should be provided
as an Adobe PDF file that complies with the accessibility requirements of section 508 of the
Rehabilitation Act of 1973, as amended. The final response should not contain data that you do
not want to be released to the public; if your response contains such data, you should identify the
data for redaction or removal. We have no objections to the further release of this report to the
public. We will post this report to our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Wade Najjum at
(202) 566-0832 or najjum.wade@epa.gov, or Dan Engelberg at (202) 566-0830 or
engelberg.dan@epa.gov.
Leaking Underground Storage Tank Recovery Act Grants                                                                      11-R-0018
Contained Requirements but Priority Lists Need More Oversight



                                   Table of Contents 


Chapters 

   1	    Introduction .......................................................................................................      1 


                 Purpose ......................................................................................................    1             

                 Background ................................................................................................       1             

                 Scope and Methodology..............................................................................               3             

                 Noteworthy Achievements ..........................................................................                4             


   2	    Leaking Underground Storage Tank Recovery Act Grants Contained 

         Requirements but Priority Lists Need More Oversight ..................................                                    5


                 Grants Contained Most Agency Regulations and
                    Guidance Requirements.........................................................................                 5

                 EPA Unable to Ensure That Cleanups Meet Prioritization Requirements ...                                           6

                 Eligibility Not Clarified Prior to ARRA Awards .............................................                      7

                 OUST Initially Lacked a Plan to Redistribute Unspent ARRA Funds ..........                                        8

                 Conclusions .................................................................................................     8             

                 Recommendation ........................................................................................           8             

                 Agency Response and OIG Comment ........................................................                          8


   Status of Recommendations and Potential Monetary Benefits..............................                                         9         




Appendices 

   A     ARRA-Related Reports from EPA OIG and GAO.............................................                                   10     


   B     State Checklist Requirements .........................................................................                   11     


   C     Agency Comments.............................................................................................             12 


   D     OIG Evaluation of Agency Comments..............................................................                          14 


   E     Distribution .........................................................................................................   15 

                                  Chapter 1

                                  Introduction
Purpose
            We reviewed the U.S. Environmental Protection Agency’s (EPA’s) management
            of American Recovery and Reinvestment Act of 2009 (ARRA) funding for the
            Leaking Underground Storage Tank (LUST) program through ARRA LUST
            Trust Funds. The Office of Underground Storage Tanks (OUST) is responsible for
            oversight of the ARRA LUST Trust Funds. We sought to determine whether
            OUST’s oversight ensures that ARRA-funded LUST cleanups comply with
            applicable laws, regulations, and guidance.

Background

            On February 17, 2009, President Obama signed ARRA into law. One of the
            primary purposes of ARRA was to preserve and create jobs and promote
            economic recovery. ARRA awarded $7.2 billion to six EPA programs. Of that
            total amount, the LUST program was allotted $200 million for cleanup activities
            related to federally regulated underground storage tanks (USTs), as authorized by
            section 9003(h) of the Solid Waste Disposal Act, as amended (SWDA). These
            funds are administered by OUST, which is housed in the Office of Solid Waste
            and Emergency Response.

            The Agency allocated the $200-million ARRA LUST appropriation as follows:

                    Grants (an award of financial assistance, including cooperative
                      agreements) with states and territories—$190.7 million
                    Cleanups on tribal lands—$6.3 million
                    Federal management and oversight—$3 million

            EPA was required to obligate all funds to the states and territories by
            September 30, 2010. Unobligated funds must be returned to the U.S. Treasury.

            Each year, states spend roughly $1 billion of state funds on LUST cleanups. EPA
            supplements this spending with appropriations from the federal LUST Trust Fund.
            States can use LUST funds to pay for cleanup activities at sites where the
            responsible party is unknown, unwilling, or unable to finance cleanup, or the
            cleanup is an emergency response. Prior to ARRA, annual LUST appropriations
            of about $60 million were spent on cleanups, site assessments, and state staff
            salaries. ARRA funds also may be used to pay for these activities. States normally
            shoulder most of the costs for LUST cleanups.




11-R-0018                                                                                   1
            Congress estimated that 3,200 jobs would result from the $200 million in ARRA
            LUST funds. Although the government does not collect cumulative jobs data, it
            reports the number of jobs funded in each quarter. From April 1, 2010, through
            June 30, 2010, the end of the most recent reporting period where jobs data are
            publicly available, the ARRA LUST Trust Fund appropriation funded 271 jobs.

            Activities Covered by ARRA LUST Appropriation

            The ARRA LUST appropriation should maximize job retention and creation,
            assess and clean up high-priority and shovel-ready LUST sites, and provide other
            environmental benefits (such as protecting ground water and cleaning up and
            reusing contaminated land). Shovel-ready sites, according to the June 2009
            guidance, are sites ready for assessment and cleanup. The Agency intended these
            grants to fund LUST-related human health and environmental protection
            activities, such as:

                  Site investigations and assessments
                  Petroleum contamination release cleanups
                  State management and oversight costs
                  Soil and ground water pollutant monitoring

            OUST estimated that ARRA funds will pay for at least 1,000 site cleanups and
            2,000 site assessments. These activities will help to reduce the national cleanup
            backlog of approximately 100,000 LUST sites that existed at the time Congress
            passed ARRA. In fiscal year 2009, EPA and its partners completed 12,944 LUST
            cleanups.

            Federal LUST Requirements

            To receive a LUST award, recipients had to agree to comply with a number of
            requirements in the Code of Federal Regulations (CFR). These ARRA grants are
            administered under 40 CFR Parts 31 and 35. Part 31 contains standard grant
            conditions regarding period of availability of funds, monitoring and reporting
            program performance, retention and access requirements for records, and
            enforcement. Part 35 contains requirements regarding work plans and evaluation
            of performance. The UST program regulations, 40 CFR 280, provide specific
            requirements for addressing LUST sites through site assessments and cleanup
            activities. Finally, section 9003(h) of the SWDA requires that states prioritize site
            cleanups that pose the greatest threats to human health and the environment.

            EPA’s ARRA LUST Requirements

            To support ARRA’s job creation goals, OUST established interim obligation and
            expenditure requirements for its grant recipients. States had to obligate 35 percent
            and spend 15 percent of their ARRA grant awards within 9 months of the grant
            award date. OUST’s June 2009 Recovery Act guidance indicated that failure to


11-R-0018                                                                                       2
            meet these obligation and spending goals could result in a number of enforcement
            actions, potentially leading to reallocation of a state’s ARRA award to another
            state.

            For sites not funded under ARRA, states only had to provide performance
            reporting semiannually to OUST. States were not required to provide OUST with
            any information on site assessments. As a condition of the ARRA LUST grants,
            recipients were required to report quarterly on the number of site assessments and
            cleanups that they were funding through ARRA. OUST’s national summary of
            quarterly ARRA performance reports include:

                  Site assessments initiated 

                  Site assessments completed 

                  Cleanups initiated 

                  Cleanups completed 


            EPA is also conducting enhanced baseline monitoring on all ARRA grants. EPA
            Order 5700.6A2 CHG2 defines baseline monitoring as the periodic review of a
            recipient’s progress in, and compliance with, a specific award’s scope of work;
            terms and conditions; and regulatory requirements. While all regular LUST Trust
            Fund grants are subject, as all other grants are, to annual baseline monitoring,
            ARRA LUST grants are subject to more frequent monitoring. EPA headquarters
            is requiring that the regions conduct quarterly baseline monitoring on all ARRA
            grants.

            EPA developed a specific Recovery Act Program Plan and guidance for its ARRA
            LUST funds. EPA developed the program plan in May 2009. In this plan, OUST
            detailed the formula that it would use to distribute ARRA funds to states and
            territories. The plan also described the allowable uses for these funds. In June
            2009, OUST also provided the regions with guidance to assist in the negotiation
            and approval of the grants. The guidance provided details about eligible and
            ineligible costs, and ARRA-specific requirements including Davis-Bacon wage
            rates, the Buy American provision, and unique reporting requirements. The
            Agency’s ARRA LUST guidance provides examples of construction activities to
            which the Buy American provision applies (e.g., piping to public water systems
            and paving) and to which the Davis-Bacon prevailing wage rate requirements
            apply (e.g., piping to public water systems, excavation, tank removal, and
            paving).

Scope and Methodology

            We conducted a review of OUST and regional oversight of state ARRA LUST
            grants from November 2009 through September 2010. We conducted this review
            in accordance with generally accepted government audit standards issued by the
            Comptroller General of the United States. Those standards require that we plan
            and perform the audit to obtain sufficient, appropriate evidence to provide a


11-R-0018                                                                                      3
            reasonable basis for our findings and conclusions based on our audit objectives.
            We believe that the evidence obtained provides a reasonable basis for our findings
            and conclusions based on our audit objectives.

            We reviewed reports, guidance documents, and correspondence to determine
            whether OUST developed and implemented adequate management controls to
            ensure that ARRA-funded LUST cleanups complied with applicable laws,
            regulations, and guidance. We list the significant prior OIG and U.S. Government
            Accountability Office (GAO) reports that we reviewed in Appendix A. We also
            interviewed OUST managers, and staff and managers in Regions 4, 5, 7, and 9.
            We chose these regions because their states and territories accounted for a large
            share of the ARRA LUST funds that had been awarded ($131.8 million, or 66
            percent of the ARRA allocation for grants with states and territories).

            We selected states based on each state’s knowledge of its underground tanks
            universe, the size of its annual LUST Trust Fund allocation, and program
            approval status. We selected two states within each of the four regions for
            intensive review—California, Florida, Georgia, Indiana, Iowa, Nebraska, Nevada,
            and Wisconsin. We obtained additional information from Illinois after we learned
            that it had some difficulty making site eligibility determinations. For each state,
            we reviewed its work plan, cooperative agreement, and other documentation, and
            interviewed state staff and managers. As part of our review, we developed a
            checklist to document the extent to which state grant applications were in
            compliance with applicable federal laws, regulations, and guidance. The
            checklists contain the applicable requirements from SWDA, the National Energy
            Policy Act of 2005, ARRA, EPA’s Recovery Act Program Plan (dated May 15,
            2009), EPA’s UST Program regulations, EPA Grants Management regulations,
            OUST’s June 2009 Recovery Act guidance, and Office of Management and
            Budget guidance (see appendix B).

Noteworthy Achievements
            OUST reported that it was one of the few EPA offices to have 100 percent of its
            grant recipients submit all of their required performance reports for both the first
            and second quarter ARRA performance reporting periods. OUST has also taken
            steps to further improve the quality of reported data. In December 2009, March
            2010, and June 2010, OUST published “lessons learned” from the first three
            quarters of ARRA performance reporting. In addition to informing states of
            common errors, the March publication indicated that OUST had added reporting
            subsystems to the LUST 4 database that allow states and regions to review their
            submitted data.




11-R-0018                                                                                          4
                                  Chapter 2

   Leaking Underground Storage Tank Recovery Act 

   Grants Contained Requirements but LUST Priority 

             Lists Need More Oversight

            While the Recovery Act grants we reviewed contained most of the requirements
            specified in Agency regulations and guidance, there were three management
            control deficiencies with these grants:

               (1) 	 EPA had not clarified to states whether municipally owned LUST sites
                     would be eligible for ARRA LUST funds.
               (2) 	 EPA had no plan to deobligate unspent ARRA funds from grant
                     recipients.
               (3) 	 EPA in many instances does not use state data to ensure that grants
                     comply with site priority requirements of SWDA.

            EPA corrected the first two deficiencies by spring 2010 through additional
            guidance to the regions. However, EPA has not yet corrected the third deficiency.
            In accordance with ARRA’s economic and environmental purposes, OUST’s June
            2009 Recovery Act guidance instructed states to use ARRA funds at sites that
            best met program priorities of being both shovel-ready and most threatening to
            human health and the environment. While every ARRA LUST cooperative
            agreement we reviewed contained language to fund shovel-ready sites, the
            agreements varied considerably in how they addressed SWDA’s site prioritization
            requirement. This management deficiency means that EPA regions are unable to
            ensure that states have directed ARRA funds to shovel-ready sites that provide the
            greatest environmental benefit.

Grants Contained Most Agency Regulations and Guidance
Requirements
            The eight ARRA LUST Trust Fund grants that we reviewed largely contained
            requirements specified in Agency regulations and guidance. Prior to awarding the
            ARRA LUST grants, OUST issued its Guidance to Regions for Implementing the
            LUST Provision of the American Recovery and Reinvestment Act of 2009. While
            nearly all of these requirements were also reflected in the state work plans and
            grants that we reviewed, we found two instances in which the Buy American
            provision was omitted.

            None of the work plans or grants that we reviewed in EPA Region 4 contained an
            explicit reference to ARRA’s Buy American requirement. Even though Florida
            staff told us they informed their contractors to implement Buy American where


11-R-0018                                                                                   5
                  practical, and Georgia officials stated that this requirement was unlikely to affect
                  their ARRA LUST work, the requirement should still have been an explicit part of
                  the terms and conditions of their cooperative agreements as it was in other
                  regions.

                  In addition to referencing EPA’s standard grant requirements, the grants usually
                  included all of the requirements that were unique to ARRA LUST Trust Fund
                  awards. In all eight of the cooperative agreements we reviewed, for example, the
                  states committed to complying with Davis-Bacon requirements in their
                  expenditures. The EPA regions also ensured that both OUST’s 35/15 obligation
                  and expenditure requirement1 and its quarterly ARRA performance reporting
                  requirements were part of all of state cooperative agreements that we reviewed.

EPA Unable to Ensure That Cleanups Meet Prioritization
Requirements
                  OUST maintains that ARRA funds were intended to achieve multiple goals and,
                  while environmental benefit was paramount in its considerations, so was the need
                  to invest ARRA funds quickly at shovel-ready sites. From April 1, 2010, through
                  June 30, 2010, ARRA funded 271 jobs, funded site assessments, and led to
                  improved environmental conditions through site cleanups (table 1).

                  Table 1: Cumulative site assessments/cleanups funded with ARRA funds
                  as of June 30, 2010
                       ARRA performance        Quarter 3 FY 2010    Cumulative        Percent
                             measure                results       long-term target   complete
                    Site assessments initiated        649              2,000            32
                   Site assessments completed         340              2,000            17
                         Cleanups initiated           402              1,000            40
                       Cleanups completed             326              1,000            33
                  Source: EPA, American Recovery and Reinvestment Act - Quarterly Performance Report
                  (Quarter 3 - Cumulative Results as of June 30, 2010).

                  Note: Recovery Act funds have contributed to other assessments and cleanups at a total of 1,424
                  sites that did not begin as Recovery Act projects.

                  We found that all eight state ARRA LUST cooperative agreements contained
                  language to fund shovel-ready sites and, therefore, are supportive of Congress’s
                  job creation goals. However, they varied considerably in the extent to which they
                  also included the SWDA site prioritization requirement. As a result, EPA is
                  unable to ensure that all ARRA-funded LUST cooperative agreements for site
                  cleanup activities authorized by 9003(h) of SWDA are consistent with the SWDA
                  site prioritization requirement.

                  OUST’s June 2009 guidance instructed states to use ARRA funds at sites that best
                  met the program priorities of being shovel ready and most threatening to human

1
 OUST’s interim obligation and expenditure requirements for its grant recipients stipulated that states had to
obligate 35 percent and spend 15 percent of the ARRA award within 9 months of the award date.


11-R-0018                                                                                                           6
            health and the environment. These funding priorities supported the job
            creation/retention and economic goals of ARRA as well as the environmental
            goals of SWDA, but created competing goals for states, which, prior to ARRA,
            only had to direct funds toward sites that posed the greatest threats to human
            health and the environment.

            Seven of the eight regional LUST program managers we interviewed did not report
            using state priority site information. This information could have been used by
            regional staff to verify that ARRA funds would be directed to high-priority sites
            that states also identified as shovel ready. Of the eight program managers we
            interviewed, only the regional program manager for the State of Nebraska reported
            using site priority information during the grant application review process. In many
            cases, regional staff lacked the necessary information to discuss how states planned
            to conduct their ARRA LUST work in accordance with the SWDA site
            prioritization requirement. No regional staff reported supplementing the state’s
            initial submission with their own review of the state’s LUST database. For
            example, while Florida’s cleanup backlog contains sites with priority scores as high
            as 111, none of the Florida LUST sites that received ARRA LUST funds had state
            priority scores over 56. The state has over 300 sites with priority scores above 56,
            some of which may have been shovel-ready sites eligible for ARRA LUST funds.
            Even though the states determined sites for cleanups, we found that regional staff
            knowledge of state priority lists was incomplete.

            Furthermore, regional program managers were unaware that sites lacked risk
            information. Even though at least 11 of Wisconsin’s ARRA LUST sites lacked
            petroleum risk information, the Region 5 state program manager stated that he
            was unaware of the large number of Wisconsin LUST sites lacking petroleum risk
            rankings. We analyzed Wisconsin’s LUST backlog and identified a total of 573
            Wisconsin LUST sites that did not have petroleum risk information. Likewise, the
            Region 5 Indiana program manager was unaware of any additional, eligible sites
            in that state that might have been candidates for ARRA-funded assessments
            because their site risk was listed as “unknown.” As of November 2009, Indiana
            had 31 active LUST sites lacking priority rankings. One of these was located at an
            elementary school (Porter Lakes Elementary) that relies on its own ground water
            sources to meet the building’s drinking water needs.

Eligibility Not Clarified Prior to ARRA Awards
            OUST and the regions dealt with many state-specific eligibility issues before the
            regions approved states’ grants. ARRA did not change the eligible uses for LUST
            Trust Fund monies and OUST expected states to be familiar with eligibility
            requirements. OUST reported that discussions with states revealed that some were
            shifting their historic uses of LUST Trust Funds from personnel costs to direct
            site work and had questions about eligibility. OUST and regions responded to
            such requests for clarification. However, OUST did not provide states with
            guidance on how to determine site eligibility in situations in which local


11-R-0018                                                                                    7
            governments obtained title to sites until March 2010—almost 6 months after the
            regions approved the last ARRA LUST grant. Since OUST had not provided
            states with complete site eligibility determination guidance in its original
            directives, the March 2010 supplemental guidance allows work to proceed on
            municipally owned sites where a financial commitment had already been made.
            The OIG Office of Counsel analyzed this supplemental guidance document and
            concluded that OUST did not exceed its discretion when it issued this guidance.

OUST Initially Lacked a Plan to Redistribute Unspent ARRA Funds
            OUST established interim obligation and expenditure requirements for its grant
            recipients to support ARRA’s economic and job creation goals. States had to
            obligate 35 percent and spend 15 percent of the ARRA award within 9 months of
            the award date. This timeframe was established to provide OUST adequate time
            to redistribute any unused ARRA funds prior to the September 30, 2010, statutory
            deadline. The June 2009 guidance states that failure to reach obligation and
            expenditure requirements could be considered a “material failure,” potentially
            resulting in states losing a portion of ARRA awards. Although OUST and the
            regions monitored expenditures of funds, OUST did not complete its development
            of a plan to redistribute funds until June 2010. On June 23, EPA’s Office of
            Grants and Debarment issued an expedited grant termination process in the
            Federal Register because OUST reported that if it had decided to take funds away
            from nonperforming states, the potentially lengthy appeals process would have
            extended beyond the September 30 deadline.

Conclusions
            EPA was largely successful in ensuring that ARRA grants contained applicable
            laws, regulations, and guidance. Moreover, in the first year of implementation,
            OUST corrected two of three cases in which there were management control
            deficiencies. The remaining challenge for EPA is consistent implementation of
            the SWDA site prioritization requirement.

Recommendation
            We recommend that the Assistant Administrator for Solid Waste and Emergency
            Response:

                   2-1 	   Ensure that the SWDA site priority requirement is consistently
                           incorporated into the terms and conditions of future LUST Trust
                           Fund grant agreements.

Agency Response and OIG Comment
            The Agency agreed with our recommendation.




11-R-0018                                                                                     8
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                              POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                             BENEFITS (in $000s)

                                                                                                                  Planned
    Rec.    Page                                                                                                 Completion   Claimed    Agreed To
    No.      No.                         Subject                        Status1         Action Official             Date      Amount      Amount

    2-1       8     Ensure that the SWDA site priority requirement is       O      Assistant Administrator for
                    consistently incorporated into the terms and                  Solid Waste and Emergency
                    conditions of future LUST Trust Fund grant                             Response
                    agreements.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




11-R-0018                                                                                                                                            9
                                                                             Appendix A

      ARRA-Related Reports from EPA OIG and GAO
While the EPA OIG has not conducted prior reviews of ARRA LUST Trust Fund assessments
and cleanups, there have been reviews of other ARRA-funded programs:

   	 EPA Recovery Act Recipient Reporting and Data Review Process, Report No. 10-R-0020,
       October 29, 2009
   	 PA Action Needed to Ensure Drinking Water State Revolving Fund Projects Meet the
       American Recovery and Reinvestment Act Deadline of February 17, 2010, Report No.
       10-R-0049, December 17, 2009
   	 EPA Needs Definitive Guidance for Recovery Act and Future Green Reserve Projects,
       Report No. 10-R-0057, February 1, 2010

GAO has issued several reports on ARRA job creation and reporting issues:

    	 RECOVERY ACT: Recipient Reported Jobs Data Provide Some Insight into Use of
       Recovery Act Funding, but Data Quality and Reporting Issues Need Attention,
       GAO 10-223, November 19, 2009
     RECOVERY ACT: Project Selection and Starts Are Influenced by Certain Federal
       Requirements and Other Factors, GAO-10-383, February 2010
     RECOVERY ACT: One Year Later, States’ and Localities’ Uses of Funds and
       Opportunities to Strengthen Accountability, GAO-10-437, March 2010
     RECOVERY ACT: States’ and Localities’ Uses of Funds and Actions Needed to Address
       Implementation Challenges and Bolster Accountability, GAO-10-604, May 2010

We also reviewed two GAO reports on EPA’s LUST program:

   	 ENVIRONMENTAL PROTECTION: More Complete Data and Continued Emphasis on
      Leak Prevention Could Improve EPA’s Underground Storage Tank Program,
      GAO-06-45, November 2005
   	 LEAKING UNDERGROUND STORAGE TANKS: EPA Should Take Steps to Better
      Ensure the Effective Use of Public Funding for Cleanups, GAO-7-152, February 2007




11-R-0018                                                                                 10
                                                                                Appendix B

                     State Checklist Requirements
We reviewed the grants between EPA and the states to determine whether they contained
requirements of Agency regulations and guidance. The checklists compiled for reviewing the
state agreements contained the following requirements.

1.     Applicable Laws
          a.	 Solid Waste Disposal Act, as amended
          b.	 Energy Policy Act of 2005, provisions regarding Underground Storage Tank
              Compliance
          c.	 American Recovery and Reinvestment Act of 2009

2.     Applicable Regulations
          a. 	 40 CFR 280.60-280.67, Subpart F—Release Response and Corrective Action for
               UST Systems Containing Petroleum or Hazardous Substances
          b. 	 40 CFR 31, Subpart C—Post-Award Requirements
          c. 	 40 CFR 31.23—Period of availability of funds
          d. 	 40 CFR 31.40—Monitoring and reporting program performance
          e.	 40 CFR 31.42—Retention and access requirements for records
          f. 	 40 CFR 31. 43—Enforcement
          g.	 40 CFR 31.45—Quality Assurance
          h. 	 40 CFR 35.107—Workplans
          i. 	 40 CFR 35.115—Evaluation of Performance

3.     Applicable Guidance
          a.	 Guidance To Regions For Implementing The LUST Provision Of The American
              Recovery And Reinvestment Act Of 2009, Office of Underground Storage Tanks,
              EPA-510-R-09-003, June 2009
          b.	 LUST Trust Fund Cooperative Agreement Guidelines OSWER Directive
              9650.10A, May 24, 1994
          c.	 OSWER Directive 9610.17—Use of Risk-based Decision-Making in UST
              Corrective Action Programs, March 1, 1995
          d.	 Supplemental Guidance on Recovery Act Recipient Reporting (section 1512) of
              the American Recovery and Reinvestment Act of 2009, Office of Underground
              Storage Tanks, October 2, 2009
          e.	 Clarification of LUST Eligibility and Grant Implications, Office of Underground
              Storage Tanks, March 17, 2010




11-R-0018                                                                                    11
                                                                                   Appendix C

                               Agency Comments
October 20, 2010


MEMORANDUM


SUBJECT:      Response to Draft Audit Report: Leaking Underground Storage Tank Recovery
              Act Grants Contained Requirements but EPA Needs to Improve State Oversight,
              Project No. 2010-1068

FROM:         Mathy Stanislaus/s/
              Assistant Administrator

TO:           Dan Engelberg
              Director, Water and Enforcement Issues
              Office of Inspector General

       Thank you for the opportunity to comment on the draft report entitled, "Leaking
Underground Storage Tank Recovery Act Grants Contained Requirements but EPA Needs to
Improve State Oversight," dated September 22, 2010. We are in general agreement with the
findings and recommendation, and will ensure all corrective actions are completed as required.

Comments on Recommendation:

       We recommend that the Assistant Administrator for Solid Waste and Emergency
Response ensure that the SWDA site priority requirement is consistently incorporated into the
terms and conditions of future LUST Trust Fund grant agreements.

        Response: We concur with this recommendation. Ensuring LUST funds are spent on
high priority sites is one of many responsibilities states must accept when receiving LUST Trust
Fund corrective action grants. OSWER's LUST Trust Fund Guidance (Directive 9650.10A)
requires states to develop a site priority system for addressing LUST sites. OUST's June 2009
Recovery Act LUST guidance also reiterated the requirement to give priority to sites posing the
greatest risks, while balancing the need to create/retain jobs. Despite such guidance, OIG
identified inconsistent application of the site priority requirement in the ARRA LUST grant
agreements. We will work to ensure this important priority is more consistently addressed in
future LUST cleanup grants.

Timing: OSWER will incorporate this requirement into the next iteration of the National
Program Manager (NPM) guidance (Spring 2011). In addition, OSWER will work to ensure
Regional programs incorporate such a term and condition into all LUST cleanup grants awarded
after June 30, 2010.



11-R-0018                                                                                        12
Additional Comments:

        Job Creation - At two places (page 2 and page 6) the draft report characterizes jobs
created in a manner that suggests cumulative figures. In both cases the numbers provided
represent jobs created during the quarter ending June 30, 2010, rather than cumulatively through
that time. We recommend you characterize the jobs created numbers as quarterly data.

        Redistribution - The first paragraph of this section indicates the process to deobligate and
redistribute would extend beyond the September 30, 2010 deadline. We believe we would have
completed the process before that deadline, had it been necessary. In fact, on June 23, 2010, we
issued an expedited grant termination process in the Federal Register to help ensure we would
meet the deadline [75 FR 35799]. Also, the second paragraph indicates that OUST should be
able to redistribute the funds returned from Florida before the September 30, 2010 deadline.
While OUST was fully prepared to redistribute the funds, the Education and Medicaid
Assistance Act rescinded $9.2 million, eliminating our ability to redistribute the funds.

       Should you have any questions regarding this response, please contact Mark Barolo in the
Office of Underground Storage Tanks at (703) 603-7141.

CC:    T
       	 im Roach, OIG
       Renee Wynn, OSWER
       Johnsie Webster, OSWER
       Carolyn Hoskinson, OUST
       Mark Barolo, OUST
       Adam Klinger, OUST




11-R-0018                                                                                         13
                                                                                      Appendix D

                OIG Evaluation of Agency Comments

The Office of Solid Waste and Emergency Response agreed with our recommendation.

The Office of Solid Waste and Emergency Response had a concern on pages 2 and 6 of our
report regarding job creation. We revised the report to reflect the job creation figures were for
one quarter only.

The Office of Solid Waste and Emergency Response had a concern on page 8 of our report
regarding the redistribution of ARRA funds. We revised this section to include actions taken by
the Agency to ensure that it would be able to redistribute funds by the September 30, 2010,
deadline. We also removed text regarding Florida’s decision to return ARRA funds to EPA,
because, according to EPA, the passage of the Education and Medicaid Assistance Act of 2010
eliminated EPA’s ability to redistribute these funds.




11-R-0018                                                                                           14
                                                                              Appendix E

                                   Distribution
Office of the Administrator
Assistant Administrator for Solid Waste and Emergency Response
Director, Office of Underground Storage Tanks, Office of Solid Waste and Emergency Response
Agency Followup Official (the CFO)
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Affairs
Associate Administrator for External Affairs and Environmental Education
Audit Followup Coordinator, Office of Solid Waste and Emergency Response




11-R-0018                                                                                15
